/
/

m

p

ip
th»

No.

J /- 530

/lbo
0 9 2021

IN THE
SUPREME COURT OF THE UNITED STATES

-A

is " «

THOMAS C. DONALD
Petitioner
v.

JAMES P. KIMBERLEY & CAROL J. KIMBERLEY
Respondents

ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF ALABAMA

PETITION FOR A WRIT OF CERTIORARI

Thomas C. Donald, pro se
Post Office Box 43507
Birmingham, Alabama 35243
Telephone: 205-720-0263
Email: tcd@bellsouth.net

RECEIVED
OCT 1 2 2021

1

QUESTION PRESENTED FOR REVIEW
When the United States conveys ownership of public
land to a person, it does so with a land patent in
which the conveyed land is described by the Section
in which it lies. The location of the Section is defined
by the last survey of the land, in accordance with
Title 43 U.S.C. § 752, conducted while the land is
still public land. This statute states, in part, that:
“The boundary lines, actually run and marked
in the surveys returned by the Secretary of the '
Interior or such agency as he may designate,
shall be established as the proper boundary
lines of the sections, or subdivisions, for which
they were intended, and the length of such lines
as returned, shall be held and considered as the
true length thereof.”
Is it a violation of Title 43 U.S.C. § 752 for the
location of the boundary of a Section of land to
be changed from the location according to the
“Official Plat of the Survey of the Land
returned to the General Land Office by the
Surveyor General”, as stated in the patent of
the land granted by the United States, to a
different location established bv the Judicial
System of Alabama?
Title 43 U.S.C. § 752 is binding upon the Judicial
System of Alabama by the Supremacy Clause
(ArtVI.C2.1.1.1) and by the Due Process Clause (U.S.
Const, amend. XIV, § 1) and by decisions of the
Federal Courts. This is a fundamental question in
real property law in the United States.

11

PARTIES TO THE PROCEEDINGS
The petitioner is Thomas C. Donald (“Donald”), who
was the plaintiff at the trial court level in the Circuit
Court of DeKalb County, Alabama, the appellant in
the Alabama Court of Civil Appeals, and the
petitioner in the Supreme Court of Alabama.
The respondents are James P. Kimberley and Carol
J. Kimberley (“the Kimberleys”), who were the
defendants at the trial court level in the Circuit
Court of DeKalb County, Alabama, the appellees in
the Alabama Court of Civil Appeals, and the
respondents in the Supreme Court of Alabama.
The proceedings involving these parties in each court
are described on the next page (iii).

Ill

STATEMENT OF RELATED PROCEEDINGS
In the Circuit Court of DeKalb County, Alabama,
case 28-CV-2017-900198, captioned Thomas C.
Donald v. James P. Kimberley and Carol J.
Kimberley, judgment was entered on June 21, 2018,
and was restated on August 9, 2018, moving a
Section boundary line from the location defined by an
1839-40 survey conducted under the authority of
Title 43 U.S.C. § 752 which states that, “The
boundary lines, actually run and marked in the
surveys ... shall be established as the proper
boundary lines of the sections ...” In breach of the
warranty made by the United States government on
the location of the Section boundary line in its land
patent, Donald was deprived of property and the
boundaries of nearby parcels of land were altered.
In the Alabama Court of Civil Appeals, case 2190017,
captioned Thomas C. Donald v. James P. Kimberley
and Carol J. Kimberley (Appeal from DeKalb Circuit
Court CV-17-900198), the judgment of the Circuit
Court was affirmed without an opinion on September
An Application for Rehearing was
11, 2020.
overruled without an opinion on January 8, 2021.
In the Supreme Court of Alabama, case 1200245,
captioned Ex parte Thomas C. Donald. Petition for a
Writ of Certiorari to the Court of Civil Appeals (In re:
Thomas C. Donald v. James P. Kimberley and Carol
J. Kimberley) (DeKalb Circuit Court: CV-17-900198;
Civil Appeals: 2190017), Donald’s petition for a writ
of certiorari was denied without an opinion on July 9,
2021, with five of nine justices concurring.

IV

TABLE OF CONTENTS
Question Presented for Review

1

Parties to the Proceedings

n

Statement of Related Proceedings

m

Table of Contents

IV

Items in the Appendices
Table of Cited Authorities
Petition for a Writ of Certiorari

v
vi

1

Opinions Below

1

The Basis for Jurisdiction

2

Constitutional Provisions and Statutes

3

Statement of the Case

6

Section Line Law and Judicial Proceedings. . . 6
The Moving of the Section Line .

12

Argument

16

Conclusion

17

!- f

V

ITEMS IN THE APPENDICES
Opinions, Orders, Findings, Conclusions............. A1
Order of June 21, 2018

A3

Order of August 9, 2018

A8

Final Order

All

Affirmation of Trial Court Judgment .

A17

Application For Rehearing Overrulled

A18

Denial of Writ of Certiorari

A20

The Public Land Survey System

.

A22

Brief re Section Lines

A25

Motion to Reconsider

A35

Motion to Reconsider Orders Moving Line . . . A43
Appellant’s Brief

A47

Petition for Writ of Certiorari

A54

VI

TABLE OF CITED AUTHORITIES
Cragin v. Powell, 128 U.S. 691 (1888)

11

Dumas v. United States Department of the Interior,
2005 WL 608276, No. CV 04-489-KI,
11
March 16, 2005.
First Beat Entertainment, L.L.C. v. ECC, L.L.C.,
962 So.2d 266 (Ala.Civ.App. 2007)....................

10

Lane v. Darlington, 249 U.S. 331 (1919)

11

United States v. Estate of St. Clair,
2016, 819 F.3d 1254,
United States Court of Appeals, Tenth Circuit... 6
United States v. Reimann,
504 F.2d 135, 138 (10th Cir.1974)
United States v. Stone, 69 U.S. (2 Wall.) 525,
17 L.Ed. 765 (1864).......................................

11

7

STATUTES AND CONSTITUTION
Title 28 U.S.C. § 1257

2, 4

Title 43 U.S.C. § 752
i, iii, 2, 3, 5, 6, 7, 8, 9, 10, 11, 12, 16, 17
Supremacy Clause (ArtVI.C2.1.1.1)

i, 5

Due Process Clause (U.S. Const, amend. XIV, § 1)
i, 5

1
PETITION FOR A WRIT OF CERTIORARI
Thomas C. Donald (“Donald”) respectfully petitions
for a writ of certiorari to review the judgment of the
Supreme Court of Alabama in case 1200245.

OPINIONS BELOW
The orders entered by the Circuit Court of DeKalb
County, Alabama, in case no. 28-CV-2017-900198
have not been published. Initial orders were entered
on June 21, 2018, and on August 9, 2018, and a final
order was entered on September 30, 2019. Copies of
the initial orders are included in the Appendix
beginning on pages A3 and A8. The final order,
included beginning of page All, did not relate to the
question presented for review in this petition.
The orders entered by the Alabama Court of Civil
Appeals in case no. 2190017 have not been
published. Orders were entered on September 17,
2020, and on January 8, 2021. Copies of these orders
are included in the Appendix beginning on page A17.
The order entered by the Supreme Court of Alabama
in case no. 1200245 has not been published. The
order was entered on July 9, 2021. A copy of this
order is included in the Appendix beginning on page
A20.
The last day for filing this petition was extended to
November 13, 2021, by a letter from the Clerk’s
Office on September 15, 2021.

2
THE BASIS FOR JURISDICTION
The Supreme Court of the United States has
jurisdiction under Title 28 U.S.C. § 1257 because the
highest court in Alabama has rendered a final
judgment which is contrary to Title 43 U.S.C. § 752
and which, therefore, draws in question the validity
of this fundamental statute of the United States.
Title 28 U.S.C. § 1257 states that, “Final judgments
or decrees rendered by the highest court of a State in
which a decision could be had, may be reviewed by
the Supreme Court by writ of certiorari where the
validity of a treaty or statute of the United States is
drawn in question ...”
The Supreme Court of Alabama, in case 1200245, let
stand an order by the Circuit Court of DeKalb
County, Alabama, which declared that the boundary
line of a section of land which was run and marked in
a survey during 1839-40, under the authority of the
Secretary of the Interior and Title 43 U.S.C. § 752,
was incorrect, and a new boundary was declared.
Title 43 U.S.C. § 752, however, states that, “The
boundary lines, actually run and marked in the
surveys ... shall be established as the proper
boundary lines of the sections.” Donald was deprived
of property as a result of the order by the Circuit
Court, and the boundaries of nearby properties were
modified.

3
CONSTITUTIONAL PROVISIONS AND
STATUTES INVOLVED

Title 43 U.S.C. § 752
The boundaries and contents of the several
sections, half-sections, and quarter-sections of
the public lands shall be ascertained in
conformity with the following principles:
First. All the corners marked in the surveys,
returned by the Secretary of the Interior or such
agency as he may designate, shall be
established as the proper corners of sections, or
subdivisions of sections, which they were
intended to designate; and the corners of halfand quarter-sections, not marked on the
surveys, shall be placed as nearly as possible
equidistant from two corners which stand on
the same line.
Second. The boundary lines, actually run and
marked in the surveys returned by the
Secretary of the Interior or such agency as he
may designate, shall be established as the
proper boundary lines of the sections, or
subdivisions, for which they were intended, and
the length of such lines as returned, shall be
held and considered as the true length thereof.
And the boundary lines which have not been
actually run and marked shall be ascertained,
by running straight lines from the established
corners to the opposite corresponding corners;
but in those portions of the fractional townships
where no such opposite corresponding corners
i

4
have been or can be fixed, the boundary lines
shall be ascertained by running from the :
established corners due north and south or east
and west lines, as the case may be, to the
watercourse, Indian boundary line, or other
external boundary of such fractional township.
Third. Each section or subdivision of section,
the contents whereof have been returned by the
Secretary of the Interior or such agency as he
may designate, shall be held and considered as
containing the exact quantity expressed in such
return; and the half sections and quarter
sections, the contents whereof shall not have
been thus returned, shall be held and
considered as containing the one-half or the
one-fourth part, respectively, of the returned
contents of the section of which they may make
part.

Title 28 U.S.C. § 1257
(a) Final judgments or decrees rendered by the
highest court of a State in which a decision
could be had, may be reviewed by the Supreme
Court by writ of certiorari where the validity of
a treaty or statute of the United States is drawn
in question or where the validity of a statute of
any State is drawn in question on the ground of
its being repugnant to the Constitution,
treaties, or laws of the United States, or where
any title, right, privilege, or immunity is
specially set up or claimed under the
Constitution or the treaties or statutes of, or

5
any commission held or authority exercised
under, the United States.
(b) For the purposes of this section, the term
"highest court of a State" includes the District
of Columbia Court of Appeals.

The Supremacy Clause
Article VI of the U.S. Constitution, ArtVI.C2.1.1.1,
states that:
“This Constitution, and the laws of the United
States which shall be made in pursuance
thereof; and all treaties made, or which shall be
made, under the authority of the United States,
shall be the supreme law of the land; and the
judges in every state shall be bound thereby,
anything in the Constitution or laws of any
State to the contrary notwithstanding.”

The Due Process Clause
The Fourteenth Amendment, U.S. Const, amend.
XIV, § 1, states that:
“[N]or shall any State deprive any person of
life, liberty, or property, without due process
of law”.

6
STATEMENT OF THE CASE
Section Line Law and Judicial Proceedings
The Honorable Randall L. Cole issued an order in the
Circuit Court of DeKalb County, Alabama, in case
28-CV-2017-100198, on June 21, 2018, which
declared a new location for the North boundary (a
“Section line” in the Public Land Survey System) of
Section 26, Township 5 South, Range 10 East, Land
District of North Alabama, Huntsville Meridian.
The Public Land Survey System is described in the
Appendix beginning on page A22 in a quote from
United States v. Estate of St. Clair, 2016, 819 F.3d
1254, at page 1256, United States Court of Appeals,
Tenth Circuit. This description cites Title 43 U.S.C.
§ 752 on which the survey system is based. This
statute established a procedure for describing the
locations of parcels of land in land patents and deeds
that was not subject to changes in meanings ensuing
from time or circumstances. The statute says that
Section boundary lines are defined by the corners
established during the surveys performed in
accordance with Title 43 U.S.C. § 752.
The dispute tried before Judge Cole was about the
location of a boundary between land owned by
Donald, north of a Section line, and land owned by
the Kimberleys south of the Section line in Section
26. Judge Cole said in his order, “The parties agree
that the Section line is their boundary, but disagree
as to the location of the Section line.”

7
Title 43 U.S.C. § 752 prohibits moving a Section line;
however, the Alabama Judicial System has ruled as
if this prohibition does not apply to it. The location
of the Section line declared by Judge Cole is different
from the location of the Section line defined by the
survey of Township 5 South, Range 10 East,
conducted by the U.S. Government during 1839-40 in
accordance with Title 43 U.S.C. § 752.
This
difference is shown beginning on page 12 in the
section of this statement of the case subtitled The
Moving of the Section Line. It is very important that
each Section line continues to be understood to be
where it was when the land was last surveyed as
Public Land, because land owners rely on permanent
locations of Section lines in determining and
The
marking the boundaries of their property,
moving of the Section line on the north boundary of
Section 26 has deprived Donald of property and will
create disputes about who owns nearby property.
Such “changing of the rules” was what Title 43
U.S.C. § 752 was intended to prohibit.
“A patent is the highest evidence of title, and is
conclusive as against the Government ...” United
States v. Stone, 69 U.S. (2 Wall.) 525, 535, 17 L.Ed.
765 (1864). When the northeast quarter of Section
26 was patented to William B. Taylor on December
31, 1889, by President Benjamin Harrison, according
to Homestead Certificate 43149, Application 10832,
it was described with reference to the Section line
defined according to the Official Plat of the Survey of
the Land made during 1839-40 according to the
dictates of Title 43 U.S.C. $ 752. That gave an
ascertainable, physical meaning to the land
patented.
Judge Cole’s order declaring a new

8
location for the Section line approximately 130 years
later cannot change the parcel of land conveyed to
Taylor and to his successors in title in 1889.
Early in this case, Donald filed a Brief re Section
Lines in trial court on September 25, 2017, in which,
on its first page, the brief stated, “A United States
Government Survey section line cannot be moved
either by agreement of landowners or through
adverse possession or by any other means.” Donald’s
brief elaborated on the requirements of Title 43
U.S.C. § 752. Throughout this case, Donald argued,
time and time again, that Title 43 U.S.C. § 752
determines the location of a Section line, but neither
Judge Cole nor the Alabama appellate courts ever
acknowledged this law. Donald’s Brief re Section
Lines is included in the Appendix beginning on page
A25.
No order issued by the Circuit Court of DeKalb
County or by the Alabama Court of Civil Appeals or
by the Supreme Court of Alabama opined that the
Section line was not moved by Judge Cole’s order.
Judge Cole’s Order of June 21, 2018, is included in
the Appendix beginning on page A3. The order
completely ignored Title 43 U.S.C. § 752 and its
requirements. Donald filed Motion to Reconsider on
July 7, 2018, pages of which are included in the
Appendix beginning on page A35. Donald’s motion
stated on page A37 that, “43 U.S.C. § 752 provides
that the corners of a section and any other
landmarks within the section established by the
original government survey shall be adhered to in
the future”. Donald’s motion extensively argued the

9
failures of Judge Cole’s Order to adhere to the
concepts embodied in Title 43 U.S.C. § 752.
Judge Cole issued a second order on August 9, 2018,
which struck, from his first order, a crucial, false
finding which he had used to justify his earlier
judgment; but, nevertheless, in his second order, he
denied Donald’s Motion to Reconsider. This second
order also ignored Title 43 U.S.C. § 752 and its
This order is included in the
requirements.
Appendix beginning on page A8.
Prior to a final order in the case which addressed a
counterclaim by the Kimberleys, Donald filed Motion
to Reconsider Orders Moving Section Line on
January 27, 2019, which is included in the Appendix
beginning on page A43. Donald’s motion stated, on
page A45, that, “Section lines established by the
United States government may not be moved”, citing
Alabama law, 5 So.3d 634, based on 43 U.S.C. § 752.
The final order in the trial court, filed on September
30, 2019, after Judge Cole retired from office, denied
the counterclaim against Donald, and denied all
other pending motions without written opinions,
including Donald’s Motion to Reconsider Orders
Moving Section Line.
On October 8, 2019, Donald filed Appellant's Brief in
the Alabama Court of Civil Appeals, pages of which
are included in the Appendix beginning on page A47.
On page A49, Donald’s brief, citing Alabama law, 22
So. 910, stated, “In this state, the lines of sections
and subdivisions thereof, are to be located by the
original government survey. Code 1886, § 84, subds.

10
13-15, and section 832.” On page A51, Donald’s brief,
citing Alabama law, 78 So.2d 324, stated, “It is
provided in U.S.C.A., Title 43, § 752, that ‘the
corners of half and quarter sections, not marked on
the surveys, shall be placed as nearly as possible
equidistant from two corners which stand on the
same line.’”
The Alabama Court of Civil Appeals affirmed Judge
Cole’s trial court order on September 11, 2020,
without a written opinion.
An Application for
Rehearing was overruled on January 8, 2021,
without a written opinion. The orders of the Court of
Civil Appeals are included in the Appendix beginning
on page A17.
The citations included in the
affirmation of the trial court’s orders did not address
the location of the Section line or the requirements of
Title 43 U.S.C § 752.
Donald then petitioned the Supreme Court of
Alabama for a writ of certiorari to be issued to the
Alabama Court of Civil Appeals. Donald’s petition is
included in the Appendix beginning on page A54. On
page A62, Donald’s petition to the Supreme Court of
Alabama stated:
“43 U.S.C. § 752 provides that the corners of a
section and any other landmarks within the
section established by the original government
survey shall be adhered to in the future.” First
Beat v. ECC, 962 So.2d 266 (Ala.Civ.App. 2007).
“The boundary lines, actually run and marked
in the surveys returned by the Secretary of the
Interior or such agency as he may designate,
shall be established as the proper boundary

11
lines of the sections, or subdivisions, for which
they were intended, and the length of such lines
as returned, shall be held and considered as the
true length thereof.” 43 U.S. Code § 752.
Donald’s petition to the Supreme Court of Alabama
was denied on July 9, 2021, with five of nine justices
concurring. The Certificate of Judgment is included
in the Appendix on page A20. It included no opinion.
The Circuit Court of DeKalb County, Alabama, and
the Alabama Court of Civil Appeals, and the
Supreme Court of Alabama all failed to address the
requirements of Title 43 U.S. Code § 752 or even to
mention that crucial federal law in any of their
orders which moved or affirmed or left standing the
moving of the Section line which is shown in The
Moving of the Section Line on the next page (12).
“Prior to title passing from the United States,
the government has the power to survey and
resurvey, establish and reestablish boundaries
on its own land. Lane v. Darlington, 249 U.S.
331 (1919). But once patent has issued, the
rights of patentees are fixed and the
government has no power to interfere with
these rights, as by a corrective resurvey.
Cragin v. Powell, 128 U.S. 691 (1888); United
States v. Reimann, 504 F.2d 135, 138 (10th
Cir.1974). The patent includes the notes, lines
and descriptions that are part of the original
survey. Reimann, 504 F.2d at 140.”
Dumas v. United States Department of the Interior,
2005 WL 608276, No. CV 04-489-KI, March 16, 2005.

12
The Moving of the Section Line
In the Circuit Court of DeKalb County, Alabama,
Judge Randall Cole’s order of June 21, 2018, moved
the North boundary line of Section 26 in violation of
Title 43 U.S.C. § 752 and deprived petitioner and
land owner Donald of property without due process,
and confused the boundaries of nearby land owners.
Judge Cole ordered, “[I]t is adjudged that the
location of the Section line dividing Sections 26 and
23 is consistent with the findings of Surveyor Johnny
Croft, and that the Northwest corner of defendants'
property is that point which Croft determined to be
the midpoint of the Section line as indicated on his
survey plat dated October 22, 2009.”
In addition to violating Title 43 U.S.C. § 752, Judge
Cole founded his order on a false premise, because
Croft had testified at trial that he did not determine
that the northwest corner of defendant’s property
indicated on his 2009 plat was the midpoint of the
Section line: (R.038-39)
How did that prove anything about the
Q.
position of that marker within the section? ...
A. I understand that because it's been checked
with the dimensions of the deed given the degree
of accuracy of rural land surveying.
Q. Well, did you -A. Did I go further to prove whether or not it was
a half mile corner?
Q. Yes, sir.
A. No. sir.

::

13
Section 26 and its north line, the “Section line”
addressed in Judge Cole’s order, are illustrated
below in a diagram of Section 26 depicting
undisputed evidence presented at the trial in this
case, 28-CV-2017-900198, in DeKalb County,
Judge Cole rejected,
Alabama, Circuit Court.
without explanation, the Presumptive North Section
Line. Instead, he ordered that the Section line ran
through point C.

C

• 46.8 ft
r-

so

1/2 mite

M
N 89.84 degrees E

1/2 mite

A,------■
V NE

Presumptive North Section Line

©
C

Section 26

□
£>
O £
©*-

(0
4#M#

(0

m
NW - Monument marking the Northwest Corner.
M • Midpoint of the North Section Line.
NE - Presumptive Northeast Corner.
SE - Monument marking the Southeast Corner.
C - Point ordained by Judge Cole as the Midpoint.

SE

14
This diagram of Section 26 shows that the Section
line ordered by Judge Cole, running through point C,
was different from the line running between point
NW and point NE which is the true Section line as
shown by the following facts.
1. The Southeast corner of Section 26 (point “SE” in
the diagram of Section 26) is marked with a
monument established during the original 1839-40
survey. No one disputes that this monument is
correctly located.
2. The Northwest corner of Section 26 (point “NW”
in the diagram of Section 26) is marked with a
monument established during 1996 by surveyor
Johnny Croft as a re-establishment of the monument
established during the original 1839-40 survey. No
one disputes that this monument is correctly located.
3. The 1839-40 field notes and survey plat show that
the East Section Line is one mile long and runs due
north from the Southeast corner of Section 26 and
ends at the East end of the North Section Line.
4. The 1839-40 field notes and survey plat show that
the North Section Line is one mile long and runs due
east from the Northwest corner of Section 26 and
ends at the North end of the East Section Line.
5. The point (point “NE” in the diagram of Section
26) one mile east of the monument marking the
Northwest corner of Section 26 and one mile north of
the monument marking the Southeast corner of
Section 26 is the “presumptive Northeast corner” of
Section 26.

15

6. The “presumptive North section line” is the
straight line running between the monument
marking the Northwest corner of Section 26 and the
presumptive Northeast corner of Section 26.
7. The point declared by Judge Cole as the “midpoint
of the Section line” (point “C” in the diagram of
Section 26) is 46.8 feet west of the midpoint of the
presumptive North section line and is 56.1 feet north
of the presumptive North section line.
8. If Judge Cole’s newly-declared North section line
begins at the monument marking the Northwest
corner of Section 26 and runs approximately 2,593.2
feet to Judge Cole’s newly-declared “midpoint” and
on past it for an equal distance, Judge Cole’s newlydeclared North section line would be 94 feet shorter
than the line described in the 1839-40 survey and
would be 1.40 degrees different in bearing.
9. It is impossible for there to be a line running due
east, in accordance with the original 1839-40 survey,
through the point declared by Judge Cole as the
“midpoint of the Section line” and which ends at the
presumptive Northeast corner of Section 26.
This was all shown, without any disputing evidence,
at the trial before Judge Cole in the Circuit Court of
DeKalb County, Alabama, on June 11, 2018.

16
ARGUMENT
The evidence presented at the trial in Circuit Court
on June 11, 2018, which was not disputed, shows
that the order of June 21, 2018, by Judge Randall
Cole established a different North boundary line for
Section 26 than the line described in the survey of
1839-40 which was the final survey by the U.S.
Government while the land was still classified as
public land. No order by the Alabama judicial
system has stated that the Section line was not
moved by Judge Cole. Judge Cole’s order violated
the central concept of Title 43 U.S.C. § 752 that, “The
boundary lines,' actually run and marked in the
surveys ... shall be established as the proper
boundary lines of the sections ...”
Judge Cole’s trial court order was affirmed by the
Alabama Court of Civil Appeals, and the Supreme
Court of Alabama declined to further consider the
matter. This suggests a broad misunderstanding of
Title 43 U.S.C. § 752 by the judicial system. It
appears to be genuinely believed that this statute
only applies to the Federal Government, and that,
after a section of land in a state is patented, the state
in which the land is located may redefine the
section’s boundaries as its judges see fit. But, such a
concept makes no sense in the context of the
warranty expressed by the Federal Government in a
land patent, and it was surely not what John Adams
intended when he and Thomas Jefferson formulated
the statute.
A ruling by the Supreme Court of the United States
that Title 43 U.S.C. § 752 applies to state judicial

17
systems will avoid further confusion and wasteful
litigation about this important matter in real
property law.

CONCLUSION
The Supreme Court of the United States should issue
a writ of certiorari to the Supreme Court of Alabama
in case 1200245, and, upon review of the matters in
this case, should rule that Title 43 U.S.C. § 752
applies to state judicial systems and prohibits the
moving of a Section line, and should order the
Supreme Court of Alabama to direct the Circuit
Court of DeKalb County, Alabama, in case 28-CV2017-900198, to order that the north boundary line of
Section 26 is located as defined by the 1839-40
survey, in accordance with Title 43 U.S.C. § 752, as it
was stated to be in the patent of the land.
Respectfully submitted,
Thomas C. Donald, pro se
Post Office Box 43507
Birmingham, Alabama 35243
205-720-0263, tcd@bellsouth.net

